APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
FIFTH CIRCUIT
_______
NATIONAL COALITION FOR MEN; JAMES LESMEISTER,
individually and on behalf of OTHERS SIMILARLY
SITUATED; ANTHONY DAVIS,
Plaintiffs-Appellees,
v.
SELECTIVE SERVICE SYSTEM; DONALD BENTON, AS
DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Defendants-Appellants.
_______
No. 19-20272
_______
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-3362
_______
Filed August 13, 2020
_______
Before WIENER, STEWART, and WILLETT, Circuit
Judges.
_______

2a
PER CURIAM:
Plaintiffs-Appellees James Lesmeister, Anthony
Davis, and the National Coalition for Men sued
Defendant-Appellants the Selective Service System
and its director (collectively, “the Government”)
alleging that the male-only military draft is unlawful
sex discrimination. The district court granted
Plaintiffs-Appellees declaratory judgment, holding
that requiring only men to register for the draft
violated their Fifth Amendment rights. Because that
judgment directly contradicts the Supreme Court’s
holding in Rostker v. Goldberg, 453 U.S. 57, 78–79
(1981), and only the Supreme Court may revise its
precedent, we REVERSE.
I.

Background

The Military Selective Service Act (the “Act”)
requires essentially all male citizens and immigrants
between the ages of eighteen and twenty-six to
register with the Selective Service System, a federal
agency, to facilitate their conscription in the event of
a military draft. 50 U.S.C. §§ 3802(a), 3809. Men who
fail to register or otherwise comply with the Act and
its implementing regulations may be fined,
imprisoned, and/or denied federal benefits. Id.
§§ 3328, 3811(a), 3811(f). The Act does not require
women to register. See id. § 3802(a).
In 1980, President Carter recommended to Congress
that the Act be extended to cover women. See Rostker,
453 U.S. at 60 (citing House Committee on Armed
Services, Presidential Recommendations for Selective
Service Reform—A Report to Congress Prepared
Pursuant to Pub. L. 96–107, 96th Cong., 2d Sess., 20–
23 (Comm. Print No. 19, 1980), App. 57–61). Congress
declined after “consider[ing] the question at great

3a
length” with “extensive testimony and evidence.” Id.
at 61, 72. In 1981, the Supreme Court held in Rostker
v. Goldberg that male-only registration did not violate
the Due Process Clause of the Fifth Amendment. Id.
at 78–79. The court based its reasoning on the fact
that women were then barred from serving in combat
and deferred to Congress’s considered judgment about
how to run the military. See id. at 76–77.
Since then, the military has gradually integrated
women into combat roles. In the early 1990s, Congress
repealed the statutory bans on women serving on
combat aircraft and ships. Pub. L. No. 103-160, § 541,
107 Stat. 1547, 1659 (1993), repealing 10 U.S.C.
§ 6015 (1988) (ships), Pub. L. No. 102-190, § 531, 105
Stat. 1290, 1365 (1991) (aircraft). In 2013, the
Department of Defense (“DoD”) announced its
intention to open all remaining combat positions to
women, the last of which it opened in 2016.
Congress again considered male-only registration in
the context of the 2017 National Defense
Authorization Act. The Senate version of the bill
would have required women to register, S. 2943, 114th
Cong. § 591 (as passed by Senate, June 21, 2016), but
the final law instead created a commission to study
the military Selective Service process to determine,
among other questions, whether the process was
needed at all and, if so, whether to conduct it
“regardless of sex,” National Defense Authorization
Act for Fiscal Year 2017, Pub. L. No. 114-328, §§ 551,
555, 130 Stat. 2000, 2130, 2135 (2016). The
commission completed its report in March 2020.
NATIONAL COMMISSION ON MILITARY, NATIONAL, AND
PUBLIC SERVICE, INSPIRED TO SERVE (2020),
https://inspire2serve.gov/sites/default/files/final-

4a
report/Final%20Report.pdf. The 2017 National
Defense Authorization Act also directed the Secretary
of Defense to issue a report addressing, inter alia, the
benefits of the Selective Service System and the
impact on those benefits of requiring women to
register, which the DoD completed in 2017. Id. § 552,
130 Stat. at 2123.
Plaintiffs-Appellees sued the Government under 42
U.S.C. § 1983 for violations of their Fifth Amendment
rights to be free from sex discrimination. On crossmotions, the district court granted summary
judgment for Plaintiffs-Appellees declaring that maleonly registration was unlawful, but it declined to issue
an injunction. The court reasoned that Rostker no
longer controlled because women may now serve in
combat. The Government appeals, asserting that
Rostker does control and that, regardless of Rostker,
male-only registration is still constitutional.
II.

STANDARD OF REVIEW

The facts are not in dispute, so we review de novo
the district court’s grant of summary judgment “to
determine whether it was rendered according to law.”
United States v. Jesco Const. Corp., 528 F.3d 372, 374
(5th Cir. 2008).
III.

ANALYSIS

In Rostker, the Supreme Court held that the maleonly Selective Service registration requirement did
not offend due process. 453 U.S. at 78–79. The Court
relied heavily on legislative history showing that
Congress thoroughly considered whether to require
women to register. See id. at 71–72, 74, 76, 81–82.
Congress, and thus the Court, believed the sole
purpose of registration to be the draft of combat troops

5a
in a national emergency. Id. at 75–76 (“Congress’
determination that the need would be for combat
troops if a draft took place was sufficiently supported
by testimony adduced at the hearings so that the
courts are not free to make their own judgment on the
question.”). Women were then barred from combat, so
the Court examined the constitutional claim with
those “combat restrictions firmly in mind.” Id. at 77.
The Court concluded, “This is not a case of Congress
arbitrarily choosing to burden one of two similarly
situated groups. . . . Men and women, because of the
combat restrictions on women, are simply not
similarly situated for purposes of a draft or
registration for a draft.” Id. at 78–79. Further, the
Court rejected the district court’s conclusion that
women could be drafted in some number into
noncombat positions without degrading the military’s
effectiveness, instead deferring to Congress’s
determination
that
the
administrative
and
operational burdens of such an arrangement exceeded
the utility. Id. at 81–82.
That holding is controlling on this court. The Fifth
Circuit is a “strict stare decisis” court and “cannot
ignore a decision from the Supreme Court unless
directed to do so by the Court itself.” Ballew v. Cont’l
Airlines, Inc., 668 F.3d 777, 782 (5th Cir. 2012);
Hernandez v. United States, 757 F.3d 249, 265 (5th
Cir. 2014), adhered to in part on reh’g en banc, 785
F.3d 117 (5th Cir. 2015), vacated and remanded sub
nom. Hernandez v. Mesa, 137 S. Ct. 2003 (2017).
“[F]ollow[ing] the law as it is . . . respect[s] the
Supreme Court’s singular role in deciding the
continuing viability of its own precedents.” Perez v.
Stephens, 745 F.3d 174, 180 (5th Cir. 2014).

6a
The Supreme Court is clear on this point as well. In
State Oil Co. v. Khan, 522 U.S. 3, 22 (1997), the Court
held that vertical maximum price fixing was not per
se unlawful, overruling Albrecht v. Herald Co., 390
U.S. 145 (1968). The Court disagreed with some of the
reasoning in Albrecht but, relevant to this case, also
found that the facts on which Albrecht rested had
changed. State Oil Co., 522 U.S. at 14–19. For
example, the procompetitive potential of vertical
maximum price fixing had become more evident since
Albrecht because other business arrangements that
combined with vertical maximum price fixing to help
consumers were per se illegal at Albrecht’s time but
had since become more common. Id. at 14–15. Also,
“the ban on maximum resale price limitations
declared in Albrecht in the name of ‘dealer freedom’
ha[d] actually prompted many suppliers to integrate
forward into distribution, thus eliminating the very
independent trader for whom Albrecht professed
solicitude.” Id. at 16–17 (quoting 8 P. AREEDA,
ANTITRUST LAW, ¶ 1635, p. 395 (1989)). The Court
nevertheless noted that, “[d]espite . . . Albrecht’s
‘infirmities, [and] its increasingly wobbly, moth-eaten
foundations,’ . . . [t]he Court of Appeals was correct in
applying that principle despite disagreement with
Albrecht, for it is this Court’s prerogative alone to
overrule one of its precedents.” Id. at 20 (quoting
Khan v. State Oil Co., 93 F.3d 1358, 1363 (7th Cir.
1996)).
Here, as in State Oil Co., the factual underpinning
of the controlling Supreme Court decision has
changed, but that does not grant a court of appeals
license to disregard or overrule that precedent. See
also Roper v. Simmons, 543 U.S. 551, 594 (2005)

7a
(O’Connor, J., dissenting) (pointing out that only the
Supreme Court may overrule its precedents “even
where subsequent decisions or factual developments
may appear to have ‘significantly undermined’ the
rationale for [the] earlier holding” and therefore the
majority should have admonished the circuit court
despite affirming its judgment); Rodriguez de Quijas
v. Shearson/Am. Express, Inc., 490 U.S. 477, 484
(1989) (“If a precedent of this Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls,
leaving to this Court the prerogative of overruling its
own decisions.”); Agostini v. Felton, 521 U.S. 203, 237,
239 (1997) (confirming rule from Rodriguez de Quijas
that lower courts may not “conclude [that] recent
cases have, by implication, overruled an earlier
precedent”).
Plaintiffs-Appellees point to no case in which a court
of appeals has done what they ask of us, that is, to
disregard a Supreme Court decision as to the
constitutionality of the exact statute at issue here
because some key facts implicated in the Supreme
Court’s decision have changed. That we will not do.
Rostker forecloses Plaintiffs-Appellees’ claims, so
the judgment of the district court is REVERSED and
the case DISMISSED.

8a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
_______
NATIONAL COALITION FOR MEN, et al.,
Plaintiffs,
v.
SELECTIVE SERVICE SYSTEM, et al.,
Defendants.
_______
CIVIL ACTION H-16-3362
_______
Entered April 29, 2019
_______
MEMORANDUM OPINION AND ORDER
_______
Pending before the court is a motion for relief from
judgment filed by plaintiffs National Coalition for
Men, Anthony Davis, and James Lesmeister
(collectively, “Plaintiffs”). Dkt. 90. Plaintiffs also filed
a “supplemental motion for summary judgment”
containing additional briefing. Dkt. 91. Defendants
Lawrence Romo and the Selective Service System
(collectively, “Defendants”) responded. Dkt. 92.
Having considered the motions, response, and

9a
applicable law, the court is of the opinion that
Plaintiffs’ motions (Dkts. 90, 91) should be DENIED.
This court previously granted summary judgment in
Plaintiffs’ favor. Dkt. 87. However, the court denied
Plaintiffs’ request for injunctive relief because
Plaintiffs failed to request an injunction in their
motion and did not brief the issue. Id. at 19. Plaintiffs
now ask the court to reconsider its denial of the
injunction request. Dkts. 90, 91. Defendants oppose
injunctive relief and have appealed the court’s
original summary judgment ruling. Dkts. 92, 93.
As a threshold matter, Federal Rule of Civil
Procedure 60(b) governs motions for relief from
judgment. Typically, “[g]ross carelessness, ignorance
of the rules, or ignorance of the law are insufficient
bases” for relief under Rule 60. Edward H. Bohlin Co.
v. Banning Co., 6 F.3d 350, 357 (5th Cir. 1993).
However, even if the court could consider Plaintiffs’
request for an injunction strictly on the merits,
Plaintiffs’ arguments still fail.
First, Plaintiffs fail to demonstrate that they are
entitled to relief under a typical injunction analysis.
Injunctive relief is an “extraordinary remedy that may
only be awarded upon a clear showing that the
plaintiff is entitled to such relief.” Winter v. Nat. Res.
Def. Council, Inc., 555 U.S. 7, 22, 129 S. Ct. 365 (2008).
A plaintiff seeking a permanent injunction must
demonstrate: “(1) that it has suffered an irreparable
injury; (2) that remedies available at law, such as
monetary damages, are inadequate to compensate for
that injury; (3) that, considering the balance of
hardships between the plaintiff and defendant, a
remedy in equity is warranted; and (4) that the public
interest would not be disserved by a permanent

10a
injunction.” Monsanto Co. v. Geertson Seed Farms,
561 U.S. 139, 156–57, 130 S. Ct. 2743 (2010) (quoting
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391,
126 S. Ct. 1837 (2006)).
Here, the third and fourth factors of this test weigh
heavily against granting injunctive relief. Plaintiffs
request that the court “either require both men and
women to register, or require neither men nor women
to register, for the [Military Selective Service Act].”
Dkt. 90 at 7. Both of these proposed actions would
place inequitable hardship on Defendants as well as
disserve the public interest. At best, both of these
changes would “lead to serious logistical problems, as
well as millions of dollars in potentially wasted
resources.” Dkt. 92 at 10–11. At worst, upheaval of the
draft registration system could “compromis[e] the
country’s readiness to respond to a military crisis.” Id.
at 9. “[A]lthough registration imposes material
interim obligations . . . [the court] cannot say that the
inconvenience of those impositions outweighs the
gravity of the harm to the United States” should
registration be enjoined. Rostker v. Goldberg (Rostker
I), 448 U.S. 1306, 1310, 101 S. Ct. 1 (Brennan, Circuit
Justice 1980). The balance of equities requires—and
the public interest is best served by—preserving the
current registration system pending appellate review.
Second, Rostker v. Goldberg (Rostker II), 453 U.S.
57, 101 S. Ct. 2646 (1981), counsels deference. “The
constitutional power of Congress to raise and support
armies and to make all laws necessary and proper to
that end is broad and sweeping.” Rostker II, 453 U.S.
at 65 (quoting United States v. O’Brien, 391 U.S. 367,
377, 88 S. Ct. 1673 (1968)). While Congress is not “free
to disregard the Constitution” in exercising its

11a
military powers, “the Constitution itself” requires
judicial deference to congressional judgment in this
area. Id. at 67.
In this case, judicial deference requires the court to
deny injunctive relief despite the ongoing
constitutional violations. The draft has significant
foreign policy, as well as national security,
implications. See Rostker I, 448 U.S. at 1310 (“[T]he
inauguration of registration by the President and
Congress was . . . an act of independent foreign policy
significance—a deliberate response to developments
overseas.”). The legislative branch is best equipped—
and constitutionally empowered—to reform the draft
registration system in light of these important policy
considerations. See Rostker II, 453 U.S. at 65 (“Not
only is the scope of Congress’ constitutional power in
this area broad, but the lack of competence on the part
of the courts is marked.”). Moreover, Congress has
created a commission that is currently studying draft
reform and will make recommendations in the coming
years. Dkt. 92 at 9. While these factors do not preclude
judicial review entirely, they do strongly suggest that
the court should defer to Congress by denying
injunctive relief at this time.
Accordingly, Plaintiffs’ motions for relief from
judgment (Dkt. 90) and summary judgment (Dkt. 91)
are DENIED.
Signed at Houston, Texas on April 29, 2019.
Gray H. Miller
Senior United States
District Judge

12a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
_______
NATIONAL COALITION FOR MEN, et al.,
Plaintiffs,
v.
SELECTIVE SERVICE SYSTEM, et al.,
Defendants.
_______
CIVIL ACTION H-16-3362
_______
February 22, 2019
_______
MEMORANDUM OPINION AND ORDER
_______
Pending before the court is: (1) a motion for
summary judgment filed by plaintiffs National
Coalition for Men (“NCFM”), Anthony Davis, and
James Lesmeister (“Plaintiffs”) (Dkt. 73); and (2) a
cross-motion for summary judgment and motion to
stay filed by defendants Selective Service System
(“SSS”)
and
Lawrence
Romo
(collectively,
“Defendants”) (Dkt. 80). Plaintiffs responded to
Defendants’ cross-motion. Dkt. 81. Having considered
the motions, response, evidence in the record, and

13a
applicable law, the court is of the opinion that
Plaintiffs’ motion for summary judgment (Dkt. 73)
should be GRANTED and Defendants’ motion for stay
and summary judgment (Dkt. 80) should be DENIED.
I.

Background

This case balances on the tension between the
constitutionally enshrined power of Congress to raise
armies and the constitutional mandate that no person
be denied the equal protection of the laws. U.S. Const.
art. I, § 8; U.S. Const. amend. V; Bolling v. Sharpe,
347 U.S. 497, 74 S. Ct. 693 (1954).
The Military Selective Service Act (“MSSA”)
requires males—but not females—to register for the
draft. The MSSA provides that “every male citizen of
the United States, and every other male person
residing in the United States . . . between the ages of
eighteen and twenty-six,” must register with SSS. 50
U.S.C. § 3802(a). After registering, men have a
continuing obligation to update SSS with any changes
in their address or status. § 3813. Failure to comply
with the MSSA can result in up to $10,000 in fines and
five years of imprisonment. § 3811(a). Males are also
subject to other penalties for failing to register,
including denial of federal student loans. § 3811(f).
Plaintiffs challenge the MSSA on equal protection
grounds, arguing that the MSSA’s male-only
registration
requirement
violates
the
Fifth
Amendment Due Process Clause. Dkt. 60 at 12.
Plaintiffs Lesmeister and Davis are males subject to
the draft requirements.1 Dkt. 73-2 at 1–2. Both have
1

Plaintiffs request judicial notice of certain facts in this case.
Dkt. 73-2. To the extent Plaintiffs request judicial notice of facts
that are not in dispute, the court grants this request.

14a
registered with the SSS, in compliance with the
MSSA. Id. NCFM is a non-profit, 501(c)(3) educational
and civil rights corporation. Id. at 3. Some of NCFM’s
members, including Davis, are males subject to the
draft requirements who have already registered or
will have to register under the MSSA. Id. at 3–4.
In 2013, NCFM and Lesmeister filed suit against
Defendants in the Central District of California. Dkt.
1. Initially, Judge Dale S. Fischer, the Central District
of California judge, dismissed the case as not ripe for
review. Dkt. 20. The Ninth Circuit reversed and
remanded, holding that the plaintiffs’ claims were
“definite and concrete, not hypothetical or abstract,
and so ripe for adjudication.” Nat’l Coal. for Men v.
Selective Serv. Sys., 640 F. App’x 664, 665 (9th Cir.
2016) (citations and quotations omitted). On remand,
Judge Fischer granted Defendants’ motion to dismiss
NCFM without prejudice because the organization
lacked associational standing. Dkt. 44 at 4. Further,
the court determined that venue was not proper in the
Central District of California and transferred the case
to the Southern District of Texas, where Lesmeister
resides. Id. at 5.
Upon transfer, Lesmeister amended his complaint
to name NCFM and Davis as plaintiffs. Dkt. 60. This
court subsequently determined that all three
plaintiffs have standing. Dkt. 59. Both Plaintiffs and
Defendants now move for summary judgment,
arguing that current equal protection jurisprudence
entitles them to judgment as a matter of law.2
2

A court shall grant summary judgment when a “movant shows
that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). Here, both sides have moved for summary judgment, so

15a
II.

Analysis

A. Motion to Stay
“The proponent of a stay bears the burden of
establishing its need.” Clinton v. Jones, 520 U.S. 681,
708, 117 S. Ct. 1636 (1997). In their pending motion,
Defendants first contend that the court should stay
the current proceedings. Dkt. 80 at 15–21. Defendants
argue that the case is not ripe for review because
Congress is currently considering whether to add
women to the draft. Id. Defendants also argue that,
under separation-of-power principles, the court
should postpone resolution of the case during
congressional debate on the issue. Id. Finally,
Defendants urge the court to stay the case using its
inherent case-management power because the
balance of hardships weighs in Defendants’ favor. Id.
1. Ripeness
The justiciability doctrine of ripeness prevents
courts, “through avoidance of premature adjudication,
from entangling themselves in abstract agreements.”
Choice Inc. of Tex. v. Greenstein, 691 F.3d 710, 715
(5th Cir. 2012) (quoting Abbott Labs. v. Gardner, 387
U.S. 136, 149, 87 S. Ct. 1507 (1967), abrogated on
other grounds by Califano v. Sanders, 430 U.S. 99, 105
(1977)). A court must dismiss for lack of ripeness when
the case is “abstract or hypothetical.” Id. (quoting New
Orleans Pub. Serv., Inc. v. Council of New Orleans,
833 F.2d 583, 586 (5th Cir. 1987)). “Ripeness
‘requir[es] us to evaluate both the fitness of the issues
for judicial decision and the hardship to the parties of
withholding court consideration.’” Texas v. United
the parties agree that there are no material fact issues to resolve.
Dkt. 73; Dkt. 80.

16a
States, 523 U.S. 296, 300–01, 118 S. Ct. 1257 (1998)
(quoting Abbott Labs., 387 U.S. at 149). “A case is
generally ripe if any remaining questions are purely
legal ones; conversely, a case is not ripe if further
factual development is required.” Choice Inc. of Tex.,
691 F.3d at 715 (quoting New Orleans Pub. Serv., Inc.,
833 F.2d at 586).
Defendants argue that the case is not currently fit
for judicial decision because Congress recently
established the National Commission on Military,
National, and Public Service (“the Commission”) to
consider whether Congress should modify or abolish
the current draft registration requirements. Dkt. 80
at 17; National Defense Authorization Act for Fiscal
Year 2017, Pub. L. No. 114-328, § 551, 130 Stat. 2000,
2130 (2016). Although the Ninth Circuit previously
held that the case was ripe despite ongoing
congressional debate, Defendants contend that the
recently created Commission now renders Plaintiffs’
claims unripe. Id. at 19. Defendants request that the
court stay proceedings until the Commission has
issued its report and Congress has had the
opportunity
to
act
on
the
Commission’s
recommendations. Id. at 21.
However, the existence of the Commission does not
affect the ripeness of Plaintiffs’ claims. The question
of whether the MSSA violates the Constitution is
purely legal; no further factual development is
necessary for the court to decide the issue. Plaintiffs’
claims are not “abstract or hypothetical.” Choice Inc.
of Tex., 691 F.3d at 715 (quoting New Orleans Pub.
Serv., Inc., 833 F.2d at 586)). While the Commission’s
recommendations
could
affect
the
current
proceedings, the Commission is not set to release its

17a
final report until 2020. Dkt. 86-1 at 4 (Commission
interim report). There is no guarantee that the
Commission will recommend amending or abolishing
the MSSA—and, even if it does, Congress is not
required to act on those recommendations. Congress
has been debating the male-only registration
requirement since at least 1980 and has recently
considered and rejected a proposal to include women
in the draft. Rostker, 453 U.S. at 60; Dkt. 80-3 at 11
(Letter to Armed Services Committee Chairs, Sept.
2016). It is Defendants’ arguments—not Plaintiffs’
claims—that are too hypothetical for the court’s
consideration.3
“However, even where an issue presents purely legal
questions, the plaintiff must show some hardship in
order to establish ripeness.” Choice Inc. of Tex., 691
F.3d at 715 (citing Cent. & S. W. Servs., Inc. v. EPA,
220 F.3d 683, 690 (5th Cir. 2000)) (quotations
omitted). Here, Plaintiffs have demonstrated that
they are subject to the MSSA. Dkt. 73-2. NCFM’s
members include individuals who will have to register
under the MSSA in the future and will be subject to
ongoing requirements to update their personal
information. Id. Moreover, “discrimination itself, by
perpetuating ‘archaic and stereotypic notions’ . . . can
cause serious non-economic injuries to those persons
who are personally denied equal treatment solely
because of their membership in a disfavored group.”
3

Defendants also argue that deference to Congress is
appropriate when pending legislation may render a legal
challenge moot, and that such deference applies here. Dkt. 80 at
19–20 (citing Schlesinger v. Ballard, 419 U.S. 498, 510 n.13, 95
S. Ct. 572 (1975)). However, Defendants do not cite any pending
legislation that would add women to the draft.

18a
Heckler v. Mathews, 465 U.S. 728, 739–40, 104 S. Ct.
1387 (1984) (citations omitted). Thus, Plaintiffs have
shown “some hardship” and the case is ripe.
2. Separation of Powers
Second, Defendants effectively argue that the court
must grant a stay to give Congress proper deference
in the realm of military affairs and avoid violating the
separation of powers. Dkt. 80 at 11–13. Defendants
cite Congress’s broad constitutional power to conduct
military affairs and the Supreme Court’s decision in
Rostker v. Goldberg, 453 U.S. 57, 101 S. Ct. 2646
(1981). Dkt. 80 at 17–19. However, “separation of
powers does not mean that the branches ‘ought to
have no partial agency in, or no controul over the acts
of each other.’” Clinton, 520 U.S. at 703 (quoting The
Federalist No. 47, at 325–326 (James Madison) (J.
Cooke ed., 1961) (emphasis in original)). Even judicial
review that “significantly burden[s] the time and
attention” of another branch “is not sufficient to
establish a violation of the Constitution.” Id. The
Supreme Court has repeatedly affirmed that
“concerns of national security . . . do not warrant
abdication of the judicial role.” Holder v.
Humanitarian Law Project, 561 U.S. 1, 34 (2010).
Rostker itself expressly acknowledged that Congress
does not receive “blind deference in the area of
military affairs.” 453 U.S. at 67. Even though
congressional power in this area is “broad and
sweeping,” Congress may not “exceed[] constitutional
limitations on its power in enacting such legislation.”
Rumsfeld v. Forum for Acad. & Inst. Rights, Inc., 547
U.S. 47, 58, 126 S. Ct. 1297 (2006) (citations and
quotations omitted). As this court previously
reasoned:

19a
The court agrees with Defendants that
Congress has broad power to raise and regulate
armies and navies. Rostker, 453 U.S. at 65.
Thus, “a healthy deference to legislative and
executive judgments in the area of military
affairs” should be given by the court. Id. at 66.
Rostker thoroughly explained the reason to
provide deference to Congress when dealing
with military affairs. See id. at 64–67. But
“[n]one of this is to say that Congress is free to
disregard the Constitution when it acts in the
area of military affairs. In that area, as any
other, Congress remains subject to the
limitations of the Due Process Clause.” Id. at
67.
Dkt. 66 at 6–7 (denying Defendants’ motion to
dismiss for failure to state a claim). Rostker explicitly
requires Congress to comply with the Constitution in
the area of military affairs, and Plaintiffs allege that
the MSSA violates the Constitution. Rostker, 453 U.S.
at 67; Dkt. 60 at 12. Additionally, as noted above,
Congress has been debating the MSSA’s registration
requirement for decades with no definite end in sight.
Even constitutionally mandated deference does not
justify a complete and indefinite stay when parties
allege that the federal government is presently
violating their constitutional rights.
3. Inherent Power
Finally, Defendants request that the court exercise
its discretion to stay the case. This court “has broad
discretion to stay proceedings as an incident to its
power to control its own docket.” Clinton, 520 U.S. at
706. Even if the burdens on the government do not
violate separation-of-powers principles, “those

20a
burdens are appropriate matters for the District
Court to evaluate in its management of the case.” Id.
at 707. “[T]he power to stay proceedings is incidental
to the power inherent in every court to control the
disposition of the causes on its docket with economy of
time and effort for itself, for counsel, and for litigants.”
Qualls v. EOG Res., Inc., No. H-18-666, 2018 WL
2317718, at *2 (S.D. Tex. May 22, 2018) (Miller, J.)
(alteration in original) (quoting Landis v. N. Am. Co.,
299 U.S. 248, 254, 57 S. Ct. 163 (1936)). The movant
must “make out a clear case of hardship or inequity in
being required to go forward.” Landis, 299 U.S. at 254.
Defendants contend that a court ruling at this time
“could disrupt or distract a process that may
ultimately render [the issue] moot” if the Commission
recommends “ending registration in its entirety.” Dkt.
80 at 18; see also Dkt. 80 at 21 (“Alternatively, such a
ruling could require the Government to spend millions
of dollars and expend significant resources and effort
changing the system of selective service—a
considerable hardship—when Congress may wish to
change the system in a completely different manner
following the Commission’s review.”). However, if the
court stayed the case until Congress acted on the
Commission’s recommendations, the case could be
stayed indefinitely. The Commission is under no
obligation to recommend certain outcomes to
Congress, and Congress is under no obligation to
follow or act on those recommendations. The fact and
nature of future congressional action is highly
speculative. Thus, the court’s time and effort is likely
best spent on the case at this stage, rather than at
some indefinite time in the future.

21a
Moreover, present resolution of the case will not
create such a hardship for Defendants that the
hardship justifies a continuous and indefinite
violation of Plaintiffs’ constitutional rights.
Congressional resolution of this issue, if it occurs, will
not necessarily be less burdensome for Defendants
than judicial resolution. Defendants have not made
out a “clear case of hardship or inequity.” Landis, 299
U.S. at 254. Therefore, the court declines to use its
inherent authority to stay the case.
B. Rostker
v.
Goldberg
and
Changing
Opportunities for Women in the Military
On substance, Defendants first argue that the
Supreme Court’s holding in Rostker v. Goldberg, 453
U.S. 57, 101 S. Ct. 57 (1981), forecloses any challenge
to gender discrimination in the MSSA. Dkt. 80 at 21–
22. However, as this court previously held in denying
Defendants’ motion to dismiss, Rostker is factually
distinguishable from the current case. Dkt. 66 (order
denying Defendants’ motion to dismiss for failure to
state a claim). The court again declines to resolve the
case on Rostker alone.
1. The Rostker Opinion
In Rostker, the Supreme Court squarely addressed
the question of whether the male-only registration
requirement in the MSSA violated equal protection
principles. 453 U.S. at 83. The Court first noted that
judging the constitutionality of a statute passed by
Congress is “the gravest and most delicate duty that
this Court is called upon to perform.” Id. at 64
(quoting Blodgett v. Holden, 275 U.S. 142, 148, 48 S.
Ct. 105 (1927)). Further, the case arose “in the context
of Congress’ authority over national defense and

22a
military affairs, and perhaps in no other area has the
Court accorded Congress greater deference.” Id. at
64–65. Thus, the Rostker Court emphasized that it
owed great deference to Congress’s judgment in
passing the MSSA because “the Constitution itself
requires such deference to congressional choice.” Id.
at 67.
The Court held that the MSSA was constitutional.
Id. at 83. After considering the extensive legislative
history of the MSSA, the Court concluded that “the
decision to exempt women from registration was not
the accidental by-product of a traditional way of
thinking about females.” Id. at 74 (quotations
omitted). Instead, the Court acknowledged that
women were not eligible for combat, but that the
purpose of registration was to prepare for a draft of
combat troops. Id. at 76–77. The Court reasoned:
This is not a case of Congress arbitrarily
choosing to burden one of two similarly situated
groups, such as would be the case with an allblack or all-white, or an all-Catholic or allLutheran, or an all-Republican or allDemocratic registration. Men and women,
because of the combat restrictions on women,
are simply not similarly situated for purposes
of a draft or registration for a draft. Congress’
decision to authorize the registration of only
men, therefore, does not violate the Due
Process Clause.
Id. at 78–79. Thus, the Court concluded that
women’s ineligibility for combat “fully justifie[d]” the
MSSA’s male-only registration requirement. Id. at 79.
“The Constitution requires that Congress treat
similarly situated persons similarly, not that it

23a
engage in gestures of superficial equality.” Id.
Because men and women were not similarly situated
with respect to combat eligibility, and therefore not
similarly situated with respect to the draft, the Court
held that the MSSA did not violate equal protection
principles. Id.
2. Factual Developments Since Rostker
In the nearly four decades since Rostker, however,
women’s opportunities in the military have expanded
dramatically. In 2013, the Department of Defense
officially lifted the ban on women in combat. Dkt. 731 at 9. In 2015, the Department of Defense lifted all
gender-based restrictions on military service. Dkt. 731 at 12. Thus, women are now eligible for all military
service roles, including combat positions.
Therefore, although “‘judicial deference . . . is at its
apogee’ when Congress legislates under its authority
to raise and support armies,” Rumsfeld, 547 U.S. at 58
(quoting Rostker, 453 U.S. at 70), the Rostker holding
does not directly control here. The dispositive fact in
Rostker—that women were ineligible for combat—can
no longer justify the MSSA’s gender-based
discrimination. 4 “[A] legislative act contrary to the
4

Defendants argue that under Rodriguez de Quijas v.
Shearson/American Express, Inc., 490 U.S. 477, 484, 109 S. Ct.
1917 (1989), this court is bound by Supreme Court precedent
regardless of a change in factual circumstances. Dkt. 80 at 21–
22. However, Rodriguez de Quijas merely notes that, in the face
of two legally conflicting decisions, lower courts should follow the
decision most directly on point instead of attempting to overrule
one of the conflicting decisions. 490 U.S. at 484. Despite Rostker’s
undeniable relevance to this case, the Rostker holding is not
directly on point and therefore does not mandate judgment in
Defendants’ favor.

24a
constitution is not law,” and it is the “province and
duty of the judicial department to say what the law
is.” Marbury v. Madison, 1 Cranch 137, 177, 5 U.S.
137 (1803). The court will consider the
constitutionality of the MSSA anew.
C. The MSSA and Equal Protection
1. Standard of Review
Laws differentiating on the basis of gender “attract
heightened review under the Constitution’s equal
protection guarantee.” Sessions v. Morales-Santana,
137 S. Ct. 1678, 1689 (2017) (citing Califano v.
Westcott, 443 U.S. 76, 84, 99 S. Ct. 2655 (1979)).
Typically, “[t]he defender of legislation that
differentiates on the basis of gender must show ‘at
least that the [challenged] classification serves
important governmental objectives and that the
discriminatory means employed are substantially
related to the achievement of those objectives.’” Id. at
1690 (quoting United States v. Virginia, 518 U.S. 515,
533, 116 S. Ct. 2264 (1996)). Further, “the
classification must substantially serve an important
governmental interest today”—it is insufficient that
the law served an important interest in the past. Id.
(citing Obergefell v. Hodges, 135 S. Ct. 2584, 2603
(2015)) (emphasis in original).
Although the MSSA discriminates on the basis of
gender, Defendants argue that a lower, rational-basislike standard of review applies. Defendants contend
that “the Court’s departures—in Rostker and other
military cases—from core aspects of strict or
intermediate scrutiny demonstrates that its approach
most closely resembles rational-basis review.” Dkt. 80
at 23. Defendants emphasize the Rostker Court’s

25a
highly deferential approach to reviewing the MSSA
and argue that recent precedent, including Trump v.
Hawaii, 138 S. Ct. 2392 (2018), affirms this lower
standard of review in the military context. Id. at 24.
However, Defendants’ reliance on Trump is
misplaced. The Trump decision concerned judicial
review of the President’s power over immigration. 138
S. Ct. at 2420. While the Trump Court acknowledged
that a deferential standard of review applied “across
different contexts and constitutional claims,” the
Court’s entire discussion centered on different claims
within the realm of immigration law. Id. at 2419.
Certainly, there are significant similarities between
the Court’s deference to Congress in military affairs
and its deference to the President in immigration
affairs. However, the Trump decision is tangential, at
best, to the issue currently before the court.
Instead, Rostker itself provides the applicable
standard of review when Congress exercises its
constitutional power to raise and support armed
forces. In Rostker, as here, the government expressly
argued that the Court should “only [] determine if the
distinction drawn between men and women bears a
rational relation to some legitimate Government
purpose.” 453 U.S. at 69. However, the Court
expressly declined to adopt this position. Id. at 69–70.
Rather, the Court relied on Schlesinger v. Ballard,
419 U.S. 498, 95 S. Ct. 572 (1975), in which the Court
upheld naval regulations creating different promotion
requirements for female officers. Rostker, 453 U.S. at
71. As the Court explained, “[Schlesinger] did not
purport to apply a different equal protection test
because of the military context, but did stress the
deference due congressional
choices
among

26a
alternatives in exercising the congressional authority
to raise and support armies and make rules for their
governance.” Id. at 71.
The Court emphasized that the judiciary “cannot
ignore Congress’ broad authority conferred by the
Constitution to raise and support armies when we are
urged to declare unconstitutional its studied choice of
one alternative in preference to another for furthering
that goal.” Id. at 71–72. However, the Court went on
to reason that “the Government’s interest in raising
and supporting armies is an ‘important governmental
interest,’” and that “[t]he exemption of women from
registration is . . . closely related to Congress’ purpose
in authorizing registration.” Id. at 70, 79 (quoting
Craig v. Boren, 429 U.S. 190, 97 S. Ct. 451 (1976)). The
Rostker Court therefore subjected the MSSA to a
heightened level of scrutiny, even in light of the
Court’s marked deference to Congress’s “studied
choice” between alternatives. Id. at 72.
2. Analysis
Thus, the dispositive question here is whether the
MSSA both serves important governmental objectives
and is substantially related to the achievement of
those objectives. Morales-Santana, 137 S. Ct. at 1689.
First, “[n]o one could deny” that the governmental
objective of raising and supporting armies is an
“important governmental interest.” Rostker, 453 U.S.
at 70. However, Plaintiffs initially counter that
registration, and the draft itself, will not necessarily
be used to draft combat troops in future wars. Dkt. 73
at 20–21. Plaintiffs contend that the court should
analyze the MSSA with the understanding that
registrants may be drafted into both combat and non-

27a
combat roles, and that Congress’s important objective
should be understood in that light. Id.
However, while future wars may require a draft of
non-combat troops, Congress still understands the
draft, as it currently exists, to be for the “mass
mobilization of primarily combat troops.” National
Defense Authorization Act, Pub. L. No. 114-328,
§ 552(b)(4), 130 Stat. at 2131. This determination is
well within Congress’s constitutional role of governing
and maintaining effective armed forces. See Rostker,
453 U.S. at 68. The court’s inquiry is thus restricted
to whether the MSSA’s male-only registration
requirement is substantially related to Congress’s
important objective of drafting and raising combat
troops.
Next, Defendants must show that the MSSA’s maleonly registration requirement is “substantially
related” to Congress’s objective. See Miss. Univ. for
Women v. Hogan, 458 U.S. 718, 724, 102 S. Ct. 3331
(1982). “The justification must be genuine, not
hypothesized or invented post hoc in response to
litigation. And it must not rely on overbroad
generalizations about the different talents, capacities,
or preferences of males and females.” Virginia, 518
U.S. at 533; see also Rostker, 453 U.S. at 67 (noting
that the Court previously struck down gender-based
classifications that were based on “overbroad
generalizations”). “[I]f the statutory objective is to
exclude or ‘protect’ members of one gender because
they are presumed to suffer from an inherent
handicap or to be innately inferior, the objective itself
is illegitimate.” Mississippi Univ. for Women, 458 U.S.
at 724 (citing Frontiero v. Richardson, 411 U.S. 677,
691, 93 S. Ct. 1764 (1973) (plurality opinion)).

28a
Defendants offer two potential justifications for
male-only registration.5 First, Defendants argue that
female eligibility to serve in combat roles “does not
answer the question of whether women should be
conscripted into combat roles” because conscription
could lead to “potential tradeoffs” for the military.
Dkt. 80 at 27 (emphasis added). Construed liberally,
Defendants appear to be arguing that requiring
women to register for the draft would affect female
enlistment by increasing the perception that women

5

In 2016, a Senate-passed version of the National Defense
Authorization Act (“NDAA”) would have required women to
register for the draft. Dkt. 80-3 at 11 (Letter to Armed Services
Committee Chairs, Sept. 2016). The Senate Armed Services
Committee acknowledged that “the ban of females serving in
ground combat units has been lifted by the Department of
Defense, and as such, there is no further justification to apply
the selective service act to males only.” S. Rep. No. 114-255, at
150–51 (2016). However, opposition to this change remained, and
the final version of the NDAA instead created the Commission to
explore a number of draft-related topics. National Defense
Authorization Act, Pub. L. No. 114-328, § 552, 130 Stat. at 2131;
see Dkt. 80-3 at 11 (Letter to Armed Services Committee Chairs).
However, based on record before the court, Congress generated
very little documentation on why it ultimately declined to amend
the MSSA. Defendants only offer a 2016 letter from a group of
senators formally requesting that the House remove the
provision adding women to the draft. Dkt. 80-3 at 11 (Letter to
Armed Services Committee Chairs) (“We should not hinder the
brave men and women of our armed forces by entrapping them
in unnecessary cultural issues . . . The provision of the FY17
NDAA requiring women to register for the Selective Service
should be removed.”). Defendants do not offer concerns about
“unnecessary cultural issues” as a justification for the MSSA’s
continued discrimination. Thus, the court must primarily rely on
congressional records from previous debates on the MSSA.

29a
will be forced to serve in combat roles. Id. at 28; Dkt.
80-3 at 173.
However, this argument smacks of “archaic and
overbroad
generalizations”
about
women’s
preferences. Schlesinger, 419 U.S. at 507–08; see also
Virginia, 518 U.S. at 533; Rostker, 453 U.S. at 67. At
its core, Defendants’ argument rests on the
assumption that women are significantly more
combat-averse than men. Defendants do not present
any evidence to support their claim or otherwise
demonstrate that this assumption is anything other
than an “ancient canard[] about the proper role of
women.” Rostker, 453 U.S. at 86 (Marshall, J.,
dissenting) (quotations and citations omitted). As the
Court reasoned in Schlesinger:
In both Reed and Frontiero[,] the challenged
classifications based on sex were premised on
overbroad generalizations . . . that men would
generally be better estate administrators than
women . . . [and] that female spouses of
servicemen would normally be dependent on
their husbands, while male spouses of
servicewomen would not. In contrast, the
different treatment of men and women naval
officers . . . reflects, not archaic and overbroad
generalizations, but, instead, the demonstrable
fact that male and female line officers in the
Navy are not similarly situated with respect to
opportunities for professional service.
419 U.S. at 507–08. It is not a “demonstrable fact” that
fewer women will enlist for fear of being conscripted
into combat. This justification fails.
Moreover, this justification appears to have been
created for litigation. See Virginia, 518 U.S. at 533.

30a
Defendants have not produced any evidence that
Congress actually looked to this concern in declining
to add women to the draft. Defendants’ evidence
establishes only that Congress may have considered a
similar issue in evaluating the Department of
Defense’s decision to open combat positions to women.
See Dkt. 80-3 at 171–74. Thus, although the court
must give significant deference to Congress’s
judgment in military affairs, such deference is not
implicated here.
Second, Defendants argue that Congress preserved
the male-only registration requirement out of concern
for the administrative burden of registering and
drafting women for combat. Dkt. 80 at 28. Unlike
Defendants’ first offered justification, Congress
considered this issue extensively in debates over the
MSSA. See S. Rep. No. 96-826, at 156–61 (1980);
Rostker, 453 U.S. at 81. Thus, the court’s deference to
Congress’s “studied choice” is potentially at its height.
Rostker, 453 U.S. at 72.
Typically, “any statutory scheme which draws a
sharp line between the sexes, solely for the purpose of
achieving administrative convenience, necessarily
commands ‘dissimilar treatment for men and women
who are . . . similarly situated,’ and therefore involves
the ‘very kind of arbitrary legislative choice forbidden
by the [Constitution].’” Frontiero, 411 U.S. at 691
(quoting Reed v. Reed, 404 U.S. 71, 77, 92 S. Ct. 251
(1971)). However, even in light of this general rule, the
Rostker Court considered and deferred to Congress’s
administrative concerns. See Rostker, 453 U.S. at 81–
82; accord Schlesinger, 419 U.S. at 507–08. The Court
distinguished past precedent by noting that the
previous classifications “were based on overbroad

31a
generalizations” but that, in contrast, Congress’s
choice to retain the MSSA was based on “judgments
concerning military operations and needs.” Id. at 67–
68 (quotations omitted). Thus, Rostker affirms that
administrative concerns may justify statutory gender
classifications in service of Congress’s broad power
over military affairs.
Congress cited several administrative concerns in
its 1980 rejection of adding women to the draft. The
primary
concern,
again,
centered
around
administrative difficulties caused by the ban on
women in combat. S. Rep. No. 96-826, at 156–61; see
also id. at 157 (“The policy precluding the use of
women in combat is, in the Committee’s view, the
most important reason for not including women in a
registration system.”). The Committee had also
expressed concern that “training would be needlessly
burdened by women recruits who could not be used in
combat.” Rostker, 453 U.S. at 81 (quoting S. Rep. No.
96-226, at 9 (1979)). However, as previously
discussed, women are now eligible for and have been
integrated into combat units. Thus, although
Congress was previously concerned about drafting
large numbers of people who were categorically
ineligible for combat, this concern factually no longer
justifies the MSSA.
However, according to Defendants, Congress also
worried about administrative problems caused by
“women’s different treatment with regard to
dependency, hardship[,] and physical standards.” Id.
at 28; S. Rep. No. 96-826, at 159. Defendants
emphasize that Congress’s concern about the physical
readiness of women for combat has not changed. Dkt.
80 at 28–29. Defendants point to an acknowledgment

32a
by the Department of Defense that “[t]hose who are
opposed” to female mandatory registration believe “it
would be inefficient to draft thousands of women
when only a small percentage would be physically
qualified to serve as part of a combat troop.” Dkt. 80
at 28; Dkt. 73-1 at 145–46 (Department of Defense,
Report on the Purpose and Utility of a Registration
System for Military Selective Service, 2017).
Therefore, “if men will, for the foreseeable future,
comprise the predominant percentage of persons
serving in combat forces, then the basis for the MSSA
has not materially changed.” Dkt. 80 at 29; see Tuan
Anh Nguyen v. INS, 533 U.S. 53, 73, 121 S. Ct. 2053
(2001) (noting that equal protection principles do not
prohibit acknowledgment of biological differences
between genders).
Again, however, this argument falls short. At the
outset, concerns about female physical ability do not
appear to have been a significant factor in Congress’s
decision-making process regarding the MSSA.
Instead, Congress mentioned concerns about female
physical ability in passing, within a list, in one
sentence of Defendants’ cited report. S. Rep. No. 96826, at 159. In contrast, Congress extensively
discussed the ban on women in combat. Id. at 156–61.
Congress also focused on the societal consequences of
drafting women, such as the perceived impropriety of
young mothers going off to war and leaving young
fathers to care for children. Id. at 159. Defendants’
evidence simply does not support the argument that
Congress preserved a male-only draft because of
concerns about female physical ability. Again, while
the court must defer to Congress, the court does not
have to defer to proffered justifications that have

33a
little, if anything, to do with Congress’s actual
judgment on the matter. See Morales-Santana, 137 S.
Ct. at 1696–97 (quoting Virginia, 518 U.S. at 533,
535–36) (“It will not do to ‘hypothesiz[e] or inven[t]’
governmental purposes for gender classifications ‘post
hoc in response to litigation.’”).
Further, under Rostker, the dispositive issue is
whether men and women are similarly situated in
regard to the draft. Rostker, 453 U.S. at 79. Thus, the
relevant question is not what proportion of women are
physically eligible for combat—it may well be that
only a small percentage of women meets the physical
standards for combat positions. However, if a
similarly small percentage of men is combat-eligible,
then men and women are similarly situated for the
purposes of the draft and the MSSA’s discrimination
is unjustified. Defendants provide no evidence that
Congress ever looked at arguments on this topic and
then made a “studied choice” between alternatives
based on that information. Cf. id. at 71–72.
Had Congress compared male and female rates of
physical eligibility, for example, and concluded that it
was not administratively wise to draft women, the
court may have been bound to defer to Congress’s
judgment. Instead, at most, it appears that Congress
obliquely relied on assumptions and overly broad
stereotypes about women and their ability to fulfill
combat roles. 6 Thus, Defendants’ second proffered
6

The average woman could conceivably be better suited
physically for some of today’s combat positions than the average
man, depending on which skills the position required. Combat
roles no longer uniformly require sheer size or muscle. Again,
Defendants provide no evidence that Congress considered
evidence of alleged female physical inferiority in combat—either

34a
justification appears to be an “‘accidental by-product
of a traditional way of thinking about females,’” rather
than a robust, studied position. Rostker, 453 U.S. at
74 (quoting Califano v. Webster, 430 U.S. 313, 320, 97
S. Ct. 1192 (1977)).
In short, while historical restrictions on women in
the military may have justified past discrimination,
men and women are now “similarly situated for
purposes of a draft or registration for a draft.” Rostker,
453 U.S. at 78. If there ever was a time to discuss “the
place of women in the Armed Services,” that time has
passed. Id. at 72. Defendants have not carried the
burden of showing that the male-only registration
requirement continues to be substantially related to
Congress’s objective of raising and supporting armies.
IV.

Conclusion

Defendants’ motion to stay and motion for summary
judgment (Dkt. 80) is DENIED. Although Plaintiffs’
complaint requests injunctive relief, Plaintiffs have
not briefed the issue and their summary judgment
motion only requests declaratory relief. Dkt. 60 at 13;
Dkt. 73 at 24. Therefore, Plaintiffs’ request for an
injunction (Dkt. 60) is DENIED. Plaintiffs’ motion for
summary judgment (Dkt. 73) is GRANTED.
Signed at Houston, Texas on February 22, 2019.
_________________________________
Gray H. Miller
Senior United States District Judge

in 1980 or 2016—and concluded that drafting women was unwise
based on that evidence.

35a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
_______
NATIONAL COALITION FOR MEN, et al.,
Plaintiffs,
v.
SELECTIVE SERVICE SYSTEM, et al.,
Defendants.
_______
CIVIL ACTION H-16-3362
_______
April 6, 2018
_______
MEMORANDUM OPINION AND ORDER
_______
Pending before the court is a motion to dismiss filed
by defendants Selective Service System (“SSS”) and
Lawrence Romo (collectively, “Defendants”). Dkt. 63.
Plaintiffs National Coalition for Men (“NCFM”),
James Lesmeister, and Anthony Davis (collectively,
“Plaintiffs”) responded. Dkt. 64. Defendants replied.
Dkt. 65. Having considered the complaint, motion,
response, reply, and applicable law, the court is of the
opinion that the motion to dismiss should be
DENIED.

36a
I.

Background

This is a case about the constitutionality of the
Military Selective Service Act’s (“MSSA”) requirement
for males—but not females—to register for the draft.1
Dkt. 60. Unless otherwise provided by the MSSA,
“every male citizen of the United States[] and every
other male person residing in the United States . . .
between the ages of eighteen and twenty-six” must
register with SSS. 50 U.S.C. § 3802(a); Dkt. 60 at 10.
After registering, men have a continuing obligation to
update SSS with any changes in their address or
status. 50 U.S.C. § 3813; Dkt. 60 at 10–11. Failure to
comply with the MSSA can result in fines or
imprisonment. 50 U.S.C. § 3811; Dkt. 60 at 11.
Lesmeister and Davis are males subject to the draft
requirements,
and
both
recently
registered
accordingly. Dkt. 60 at 4–5. NCFM is a non-profit,
501(c)(3) educational and civil rights corporation. Id.
at 2. Davis is a NCFM member. Id. at 3. Like Davis,
some of its members are males subject to the draft
requirements and have already registered or will have
to register. Id.
On April 4, 2013, NCFM and Lesmeister filed a
complaint in the Central District of California against
Defendants alleging violations of the Fifth and
Fourteenth Amendments of the Constitution and
violation of 42 U.S.C. § 1983 for sex-based
discrimination in the draft system. Dkt. 1. Plaintiffs
argue that because women can participate in combat,
1

For the purposes of a motion to dismiss, the court accepts all
well-pled facts contained in Plaintiffs’ complaint as true. Kaiser
Aluminum & Chem. Sales, Inc. v. Avondale Shipyards, Inc., 677
F.2d 1045, 1050 (5th Cir. 1982).

37a
the Supreme Court decision upholding the
constitutionality of sex-based discrimination in the
draft is no longer applicable. Dkt. 1 (citing Rostker v.
Goldberg, 453 U.S. 57, 101 S. Ct. 57 (1981)).
Initially, Judge Dale S. Fischer, the Central District
of California judge, dismissed the case as not ripe for
review. Dkt. 20. The Ninth Circuit reversed and
remanded. Nat’l Coalition for Men v. Selective Serv.
Sys., 640 F. App’x 664, 665 (9th Cir. 2016). Then,
Lesmeister and NCFM voluntarily dismissed their
Fourteenth Amendment and § 1983 claims. Dkt. 43.
On November 9, 2016, Judge Fischer granted
Defendants’ motion to dismiss NCFM without
prejudice
because
the
organization
lacked
associational standing. Dkt. 44 at 4. Further, the
court determined that venue was not proper in the
Central District of California and transferred the case
to the Southern District of Texas, where Lesmeister
resides. Id. at 5. On August 16, 2017, this court
granted Lesmeister leave to file an amended
complaint. Dkt. 59. Lesmeister’s amended complaint
named NCFM as a plaintiff and added Davis as a
plaintiff. Dkt. 60.
In the instant motion, Defendants move to dismiss
Plaintiffs’ remaining Fifth Amendment claim under:
(1) Rule 12(b)(1) because Plaintiffs do not have
standing to sue; and (2) Rule 12(b)(6) because
Plaintiffs do not state a claim upon which relief can be
granted. Dkt. 63 at 2.
II.

Legal Standard

A. Rule 12(b)(1) Standard
A motion to dismiss under Rule 12(b)(1) challenges
a federal court’s subject matter jurisdiction. Fed. R.

38a
Civ. P. 12(b)(1). Under Rule 12(b)(1), a claim is
properly dismissed for lack of subject matter
jurisdiction when the court lacks the statutory or
constitutional power to adjudicate the claim. Home
Builders Ass’n v. City of Madison, 143 F.3d 1006, 1010
(5th Cir. 1998). Where, as here, a motion to dismiss
for lack of jurisdiction is limited to a facial attack on
the pleadings, it is subject to the same standard as a
motion brought under Rule 12(b)(6). See Benton v.
United States, 960 F.2d 19, 21 (5th Cir. 1992).
B.

Rule 12(b)(6) Standard

Rule 8(a)(2) requires that the pleading contain “a
short and plain statement of the claim showing that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
A party against whom claims are asserted may move
to dismiss those claims when the nonmovant has
failed “to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6).
To survive a Rule 12(b)(6) motion to dismiss, a
plaintiff must plead “enough facts to state a claim to
relief that is plausible on its face.” In re Katrina Canal
Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570,
127 S. Ct. 1955 (2007)). “Factual allegations must be
enough to raise a right to relief above the speculative
level on the assumption that all the allegations in the
complaint are true (even if doubtful in fact).”
Twombly, 550 U.S. at 555 (citations omitted). While
the allegations need not be overly detailed, a
plaintiff’s pleading must still provide the grounds of
his entitlement to relief, which “requires more than
labels and conclusions,” and “a formulaic recitation of
the elements of a cause of action will not do.” Id.; see
also Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.

39a
1937 (2009). “[C]onclusory allegations or legal
conclusions masquerading as factual conclusions will
not suffice to prevent a motion to dismiss.” Blackburn
v. City of Marshall, 42 F.3d 925, 931 (5th Cir. 1995).
Instead, “[a] claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Iqbal, 556 U.S. at
678. Evaluating a motion to dismiss is a “contextspecific task that requires the reviewing court to draw
on its judicial experience and common sense.” Id. at
679. “Ultimately, the question for a court to decide is
whether the complaint states a valid claim when
viewed in the light most favorable to the plaintiff.”
NuVasive, Inc. v. Renaissance Surgical Ctr., 853 F.
Supp. 2d 654, 658 (S.D. Tex. 2012).
III.

Analysis

A. Plaintiffs’ Standing
Defendants move to dismiss Plaintiffs’ claim
because Plaintiffs do not have standing to sue. Dkt. 63
at 19. Defendants argue that Lesmeister and Davis
lack standing because they have not suffered an
injury from the MSSA’s male-only registration
requirement. Id. at 20. They also argue that because
the individual plaintiffs lack standing, NCFM lacks
associational standing. Id. at 23.
1.

Lesmeister/Davis Standing

Under Article III of the Constitution, a plaintiff
must have standing to sue in order for a court to have
jurisdiction. See Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180, 120 S. Ct.
693 (2000). “[T]o satisfy Article III’s standing
requirements, a plaintiff must show (1) it has suffered

40a
an ‘injury in fact’ that is (a) concrete and
particularized and (b) actual or imminent, not
conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant;
and (3) it is likely, as opposed to merely speculative,
that the injury will be redressed by a favorable
decision.” Id. at 180–81.
Defendants argue that Lesmeister and Davis lack
standing because: (1) neither can demonstrate an
injurious harm; and (2) they cannot assert a de facto
injury simply due to the alleged constitutional
violation. Dkt. 63 at 20. Plaintiffs respond that they
“are harmed because they are required to register for
military conscription, continually report their
whereabouts to the federal government under penalty
of fines, jail, and will be denied federal benefits if they
do not.” Dkt. 64 at 2. Further, they allege they are
harmed due to the sex-based discrimination, which
sufficiently constitutes an injury. Id. Because the
court agrees that Lesmeister and Davis have alleged
an injury, the court need not consider whether the
sex-based discrimination alone constitutes an injury.
As Judge Fischer previously found in this case,
Plaintiffs allege that: (1) the MSSA requires males
between the ages of 18 and 26 to register with SSS; (2)
a registrant has a continuing obligation to update SSS
with any changes in his address or status; (3) failure
to comply with the MSSA can result in fines or
imprisonment; and (4) Lesmeister and Davis have
registered and are subject to the continuing
obligation. Dkt. 44 at 3; see also Dkt. 60 at 10–11.
Although Defendants argue that the prospect of being
drafted fails to constitute a concrete harm, the court
need not decide that issue because that is not the

41a
harm Plaintiffs allege. Defendants also argue that
because Lesmeister and Davis have complied with the
MSSA, neither is subject to any action to enforce its
requirements. Id. Regardless, both have a continuing
obligation to update SSS with changes to their
information. Dkt. 60 at 10–11. That obligation, paired
with the requirement to register with SSS, constitutes
an injury sufficient for Article III standing. See E. Tex.
Baptist Univ. v. Sebelius, 988 F. Supp. 2d 743, 758
(S.D. Tex. 2013) (Rosenthal, J.) (“HBU’s injury arises
from the fact that the accommodation requires it to
comply with the self-certification steps or face severe
penalties. . . . HBU is harmed when it has to fill out
the form authorizing its TPA to provide coverage and
payments for emergency contraceptives, designating
its TPA as the administrator for no-cost-sharing
contraceptive benefits, and informing the TPA of its
statutory and regulatory obligations.”), rev’d on other
grounds sub nom. E. Tex. Baptist Univ. v. Burwell,
793 F.3d 449 (5th Cir. 2015), vacated on other grounds
sub nom. Zubik v. Burwell, 136 S. Ct. 1557 (2016); see
also Goldberg v. Rostker, 509 F. Supp. 586, 590–91
(E.D. Pa. 1980), rev’d on other grounds, 453 U.S. 57
(1981). Because Lesmeister and Davis have Article III
standing, Defendants’ motion is DENIED.
2.

Associational Standing

“It is well-established that an association has Article
III standing to bring a suit on behalf of its members
when ‘(a) its members would otherwise have standing
to sue in their own right; (b) the interests it seeks to
protect are germane to the organization’s purpose;
and (c) neither the claim asserted nor the relief
requested requires the participation of individual
members in the lawsuit.’” Funeral Consumers All.,

42a
Inc. v. Serv. Corp. Int’l, 695 F.3d 330, 343 (5th Cir.
2012) (quoting Hunt v. Wash. State Apple Advert.
Comm’n, 432 U.S. 333, 343, 97 S. Ct. 2434 (1977)).
Defendants argue that because NCFM cannot allege
that any members have standing, NCFM also lacks
standing. Dkt. 63 at 24. Because Davis is a member of
NCFM and has standing to sue in his own right,
NCFM does, too. See Funeral Consumers, 695 F.3d at
343; see also supra Section III.A.1. Thus, Defendants’
argument fails, and the motion is DENIED.
B.

Failure to State a Claim

Defendants argue that Plaintiffs fail to state a claim
because: (1) entry of the relief sought would
impermissibly intrude on Congress’s authority over
military affairs; and (2) Rostker binds the court and
requires dismissal. Dkt. 63 at 25, 28. The court
disagrees with both arguments. The court agrees with
Defendants that Congress has broad power to raise
and regulate armies and navies. Rostker, 453 U.S. at
65. Thus, “a healthy deference to legislative and
executive judgments in the area of military affairs”
should be given by the court. Id. at 66. Rostker
thoroughly explained the reason to provide deference
to Congress when dealing with military affairs. See id.
at 64–67. But “[n]one of this is to say that Congress is
free to disregard the Constitution when it acts in the
area of military affairs. In that area, as any other,
Congress remains subject to the limitations of the Due
Process Clause.” Id. at 67. Plaintiffs allege that the
MSSA violates the Constitution. Dkt. 60 at 12.
Because Rostker explicitly requires Congress to
comply with the Constitution in the area of military
affairs, and because Plaintiffs allege Defendants did
not, Plaintiffs state a claim upon which relief can be

43a
granted. See Rostker, 453 U.S. at 67; see also Dkt. 60
at 12.
Regarding Rostker’s applicability, as the court
explained, Rostker did not hold that Congress receives
blind deference in the area of military affairs. 453 U.S.
at 67. And regarding Rostker’s holding that the maleonly draft did not violate the Constitution, the factual
circumstances of this case are different. See id. at 76,
77 (“Women as a group, however, unlike men as a
group, are not eligible for combat. . . . The existence of
the combat restrictions clearly indicates the basis for
Congress’[s] decision to exempt women from
registration.”). Now, women can serve in combat roles.
Dkt. 60 at 7. Because the alleged factual
circumstances of this case differ from the dispositive
facts in Rostker, the court cannot conclude, at this
stage, that Rostker controls the outcome.
IV.

CONCLUSION

Because Plaintiffs have standing and assert a claim
upon which relief can be granted, Defendants’ motion
to dismiss (Dkt. 63) is DENIED.
Signed at Houston, Texas on April 6, 2018.

Gray H. Miller
United States District Judge

44a
APPENDIX E
_________
NOT FOR PUBLICATION
_________
UNITED STATES COURT OF APPEALS
NINTH CIRCUIT
_________
NATIONAL COALITION FOR MEN and JAMES
LESMEISTER, Individually and on behalf of others
similarly situated,
Plaintiffs-Appellants,
v.
SELECTIVE SERVICE SYSTEM and LAWRENCE G. ROMO,
as Director of Selective Service System,
Defendants-Appellees.
_______
No. 13-56690
_______
D.C. No. 2:13-cv-02391-DSF-MAN
_______
Appeal from the United States District Court
for the Central District of California
Dale S. Fischer, District Judge, Presiding
_______
Argued and Submitted December 8, 2015
Pasadena, California
_______

45a
Filed February 19, 2016
_______
MEMORANDUM*
_______
Before: GOULD and BERZON, Circuit Judges, and
STEEH,** Senior District Judge.
_________
The National Coalition for Men (“Coalition”) and
James Lesmeister appeal the district court’s dismissal
of their suit against the Selective Service as unripe.
We reverse and remand for further proceedings.
1. “[S]ince ripeness is peculiarly a question of
timing, it is the situation now rather than the
situation at the time of the District Court’s decision
that must govern.” Blanchette v. Conn. Gen. Ins.
Corps., 419 U.S. 102, 140 (1974). The district court’s
decision was largely premised on the fact that the
Department of Defense has been engaged in a multiyear process of integrating women into formerly
closed positions, and it was unclear the extent to
which these positions would be opened. Much of that
uncertainty has passed: as the government has noted,
the Secretary of Defense recently announced that the
military “intends to open all formerly closed positions”
to women.

*

This Disposition is not appropriate for publication and is not
precedent except as provided by 9th Cir. R. 36-3.
**

The Honorable George Caram Steeh III, Senior District
Judge for the U.S. District Court for the Eastern District of
Michigan, sitting by designation.

46a
Even if some uncertainty remains as to the full
extent to which women will end up serving in combat
roles, that does not render the Coalition and
Lesmeister’s claims unripe. The ripeness inquiry asks
whether there is a legitimate controversy that is “fit
for adjudication.” Assoc. of Am. Med. Colls. v. United
States, 217 F.3d 770, 782 (9th Cir. 2000) (quoting
Texas v. United States, 523 U.S. 296, 300 (1998)).
Lesmeister and the Coalition point to numerous
specific changes in statutes, policies, and practices
that have happened since the Supreme Court’s
decision in Rostker v. Goldberg, 453 U.S. 57 (1981).
The Selective Service argues that women’s roles in
combat have not changed sufficiently to revisit
Rostker. But whether there has been sufficient change
to revisit Rostker is a question about the merits of the
Coalition and Lesmeister’s claims, not about ripeness.
We make no comment on the merits of these claims,
other than noting that they are “definite and concrete,
not hypothetical or abstract,” and so ripe for
adjudication. Wolfson v. Brammer, 616 F.3d 1045,
1058 (9th Cir. 2010) (quoting Thomas v. Anchorage
Equal Rights Comm’n, 220 F.3d 1134, 1139 (9th Cir.
2000)).
2. For purposes of standing’s redressability
inquiry, the injuries the Coalition and Lesmeister
allege could be addressed either by extending the
burden of registration to women or by striking down
the requirement for men. When a court sustains an
equal protection challenge to a statute, “it may either
declare the statute a nullity . . . or it may extend the
coverage of the statute.” Heckler v. Mathews, 465 U.S.
728, 738 (1984) (quoting Welsh v. United States, 398
U.S. 333, 361 (1970) (Harlan, J., concurring in the

47a
result)); see also Levin v. Commerce Energy, Inc., 560
U.S. 413, 426-27 (2010) (“How equality is
accomplished—by extension or invalidation of the
unequally distributed benefit or burden, or some other
measure—is a matter on which the Constitution is
silent.”). We express no view as to which remedy
might ultimately be appropriate. But we note the
Selective Service is wrong to argue that the Coalition
and Lesmeister lack standing because their alleged
equality injuries would not be redressed if the burdens
they challenge were extended to women.
3. We decline otherwise to address the Selective
Service’s standing argument. The remaining
challenges to standing are premised on alleged
deficiencies in the complaint. The district court did
not address these alleged deficiencies. A full
consideration of the case-specific standing issues may
benefit from amendment of the complaint and factual
development. See, e.g., Hayes v. County of San Diego,
736 F.3d 1223, 1229 (9th Cir. 2013); Friery v. L.A.
Unified Sch. Dist., 448 F.3d 1146, 1150 (9th Cir.
2006).
We remand for the district court to consider the
questions of standing other than the one we have
addressed, and, if it has jurisdiction, the merits of the
case.
REVERSED and REMANDED.

48a
APPENDIX F
_________
LETTER FROM SECRETARY OF DEFENSE
TO PRESIDENT OF THE SENATE
_______
FROM: SECRETARY OF DEFENSE
1000 DEFENSE PENTAGON
WASHINGTON, DC 20301-1000
_______
TO: THE HONORABLE JOSEPH R. BIDEN, JR.
PRESIDENT OF THE SENATE
UNITED STATES SENATE
WASHINGTON, DC 20510
_______
December 3, 2015
_______
Dear Mr. President:
This letter provides notification as required by
section 652 and section 6035 of title 10, U.S.C., that
the Department of Defense (DoD) intends to assign
women to previously closed positions and units across
all Services and U.S. Special Operations Command.
The enclosure provides a detailed description of the
intended changes and the required analysis of their
impact on the constitutionality of the application of
the Military Selective Service Act to males only.
Additionally, the position descriptions for the affected
occupational specialties, Additional Skill Identifiers,
Skill Qualification Identifiers, and Navy Enlisted
Classification Codes are enclosed. DoD will not
implement changes to direct ground combat units and

49a
occupations listed in the enclosure until 30 calendar
days after notification is received by Congress.
Consistent with 10 U.S.C. 6035, no change in
Department of the Navy policy limiting service on
submarines to males shall take place until a period of
30 days of continuous session of Congress (excluding
any day on which either House of Congress is not in
session) expires following the date on which the notice
is received by Congress. Additionally, DoD will not
expend funds to configure any existing submarines or
to design any new submarine to accommodate female
crew members until the Department submits written
notice of the proposed reconfiguration or design and a
period of 30 days of continuous session of Congress
(excluding any day on which either House of Congress
is not in session) expires following the date on which
the notice is received by Congress.
The DoD intends to open all formerly closed
positions, occupations, Additional Skill Identifiers,
Skill Qualification Identifiers, and Navy Enlisted
Classification Codes to women in the Active and
Reserve Components across all Services. The DoD
reviewed the occupational standards associated with
these positions and determined they are genderneutral.
I appreciate your continued support of the
extraordinary men and women serving our Nation. I
am sending identical letters to the Speaker of the

50a
House and the Chairmen of the congressional defense
committees.
Sincerely,
/s/ Ash Carter
Enclosures:
As stated
***

51a
Detailed Legal Analysis
The Department’s notification under Section 652,
title 10, United States Code, notifies Congress that,
based on a comprehensive review of military
assignment policies, the Department will open all
positions to the assignment of women, thereby
providing men and women the same opportunities to
serve in all positions based on their abilities and
qualifications.
Section 652 requires that such
notifications include a detailed analysis of the legal
implications of the proposed change with respect to
the constitutionality of the application of the Military
Selective Service Act (50 App. U.S.C. 451 et seq.)
(MSAA or Act) to males only.
See 10 U.S.C.
§ 652(a)(3)(B).
The MSSA requires that every male citizen of the
United States, and every other male person residing
in the United States, between the ages of eighteen and
twenty-six, register at such time or place, and in such
manner, as shall be determined by proclamation of the
President and by rules and regulations prescribed. 50
U.S.C. App. § 453(a).
In Rostker v. Goldberg, 453 U.S. 57 (1981), the
United States Supreme Court considered the
constitutionality of male-only draft registration under
the Act and upheld the Act. The Court held that the
Act’s male-only registration provisions did not violate
the Fifth Amendment to the United States
Constitution because men and women were not
similarly situated for purposes of a draft or
registration, in that women were excluded from
combat by statute and military policy. The Court
found that Congress acted within its constitutional
authority to raise and regulate armies and navies

52a
when it authorized the registration of men and not
women. The Court made clear that its “precedents
requiring deference to Congress in military affairs”
were implicated in the case. Id. at 69.
In Rostker, the Court recognized that the decision by
Congress to exclude women from the registration
requirement was not the “accidental by-product of a
traditional way of thinking about females” but rather
was the subject of considerable national attention and
public debate, and was extensively considered by
Congress in hearings, floor debates, and in committee.
Id. at 74 (internal quotation marks omitted). The
Court deferred to Congress’ explanation that “[i]f
mobilization were to be ordered in a wartime scenario,
the primary manpower need would be for combat
replacements.” Id. at 76 (internal quotation marks
omitted). Additionally, the Court noted that women
were not similarly situated to men for purposes of the
Act because of their exclusion from assignments to
certain units whose primary mission is to engage in
direct combat on the ground. See id. at 76-78.
The landscape on the assignment of women has
changed since Rostker was decided. Since the Rostker
decision, sections 8549 and 6015 of title 10, U.S.C.
(prohibiting the assignment of women to aircraft
engaged in combat and vessels engaged in combat,
respectively) have been repealed. On February 8,
2012, the Department rescinded its co-location
restriction on the assignment of women, and approved
an exception to the 1994 Direct Ground Combat
Definition and Assignment Rule that allowed the
assignment of women to select direct ground combat
units in specific occupations at the battalion level and
above.
On January 24, 2013, the Department

53a
rescinded its 1994 Direct Ground Combat Definition
and Assignment Rule, which prohibited the
assignment of women to certain units and positions.
In rescinding the 1994 policy, the Department
established a way forward, using the guiding
principles and milestones developed by the Joint
Chiefs of Staff, to integrate women into all then-closed
positions as expeditiously as possible, considering
good order and judicious use of fiscal resources, no
later than January 1, 2016. Throughout this process,
the Department has kept Congress abreast of its
changes through briefings and required notifications.
The opening of all direct ground combat positions to
women further alters the factual backdrop to the
Court’s decision in Rostker. The Court in Rostker did
not explicitly consider whether other rationales
underlying the statute would be sufficient to limit the
application of the MSSA to men. The Department will
consult with the Department of Justice as appropriate
regarding these issues.

54a
APPENDIX G
_________
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
_______
NATIONAL COALITION FOR MEN et al.,
Plaintiffs,
v.
SELECTIVE SERVICE SYSTEM et al.,
Defendants.
_______
No. 4:16-cv-3362
_______
Dated: June 14, 2018
_______
DEFENDANT SELECTIVE SERVICE SYSTEM’S
OBJECTIONS AND RESPONSES TO PLAINTIFFS’
FIRST SET OF INTERROGATORIES
_______
***
Interrogatory No. 11: Explain, in detail, any logistical
problems you are aware of with requiring women to
register for the Selective Service?
Objection: SSS objects to this interrogatory on the
ground that it calls for speculation. Given that women
do not currently register for the Selective Service, SSS
cannot identify with any certainty what logistical

55a
problems might arise if they were legally required to
do so.
Response: SSS is presently unaware of any specific
logistical problems that would arise if women were
required to register for the Selective Service.
***

